             PUBLIC
            RELEASE


PATENT AND TRADEMARK OFFICE

  Inadequate Contractor Transition Risks
       Increased System Cost and Delays

Inspection Report No. OSE-10084-8-0001 / December 1997




                            Office of Systems Evaluation
Office of Inspector General                                                  Final Inspection Report


PTO disagreed with our recommendations that certain steps be taken to improve transition
management. It also disagreed that it needed to improve the quality of transferred APS
documentation and application code, and APS training of the SDM contractors. The primary
purpose of these recommendations was to have PTO establish a team knowledgeable about
transition issues, including PRC and the SDM contractors, that would be proactive in identifying
the priority issues and solutions in the limited time remaining before PRC leaves. We believe that
such an approach would have reduced the risk of using both out-of-date documentation and
application code whose accuracy was not verified through testing. It also would have maximized
the use of PRC’s time and PTO’s limited resources. Because of the new contractors’
unfamiliarity with APS, solutions to operational problems may be delayed and resources may be
diverted from developing systems important to achieving PTO’s performance goals. However,
with PRC’s contract extension expiring soon, PTO lacks sufficient time to implement these
recommendations.

PTO also questioned the scope of the report. Because the transition was underway and soon to
be completed, we limited the inspection to evaluating whether PTO had made adequate
preparations for the SDM contractors to assume PRC’s APS development and maintenance
activities. Specifically, we reviewed three aspects of the transition that were directly related to
system development and maintenance: (1) transfer of APS materials, (2) training of the SDM
contractors , and (3) preparation for configuration management. We did not address the transfer
of other PRC activities, which started in 1991, to contractors other than the SDM contractors.
We acknowledge that these other transfers reduced PTO’s reliance on PRC. However, we stand
by our findings that PTO relies even today on PRC’s knowledge of APS and that more
preparation could have mitigated some of the problems that the SDM contractors are already
encountering.

We made minor changes and clarifications to the report on the basis of updates provided by PTO
in its response and recent discussions about transition progress with PTO, PRC, and the SDM
contractors. PTO’s response to our report is included as Attachment A.

We want to thank PTO for its cooperation and assistance during this inspection.

BACKGROUND
PRC has been PTO’s prime systems contractor for the APS since 1984. Working together, PTO
and PRC have automated major portions of the patent examination process. However,
considerable effort still remains to fully deploy APS and automate the handling of patent
applications. APS is crucial to PTO’s business of examining and disseminating patents. It allows
examiners, attorneys, and the public to electronically search patent databases and enables PTO to



                                                 2
Office of Inspector General                                                 Final Inspection Report


service orders for patent (and trademark) documents. PTO has relied on PRC for almost every
aspect of planning, development, deployment, and maintenance of APS.

To improve project management and contractor performance, PTO has embarked on a new
system acquisition approach. Part of this approach is to replace its 13-year PRC contract with a
new SDM contract. This contract, valued at $511 million over an eight-year period, was awarded
on February 12, 1997, to two contractors, Lockheed-Martin and Computer Sciences Corporation.
The purpose of the SDM contract is to consolidate APS and various non-APS system contracts
and to improve contractor performance by maintaining ongoing competition for tasking. The two
SDM contracts officially started on May 15, 1997. Initially, the SDM contractors are expected to
assume development and maintenance responsibilities currently being handled by PRC. PRC’s
contract was scheduled to expire on September 30, 1997 (but has now been extended for three
months). The Chief Information Officer (CIO) is responsible for the SDM contracts as well as for
transferring existing system activities to the SDM contractors.

Transition of PRC work activities to PTO and the new SDM contractors entails transferring
(1) work materials, such as software, system documentation, and development support tools; (2)
institutional knowledge, including crucial design tradeoffs made to meet performance goals and
methods used to isolate operational problems; and (3) responsibilities for managing the system
life cycle, such as configuration management (that is, control of software, hardware, and
documentation throughout the system life cycle). The goals for the transition are to provide
accurate, complete material for the new contractors to work with; to reduce the contractors’
“learning curve” through training; and to put into place system life cycle procedures and support
tools so that the contractors can begin working productively when tasking begins. To succeed,
the transition must involve the incumbent contractor, the new contractors, and PTO.

PURPOSE AND SCOPE
The purpose of this inspection was to determine whether PTO was prepared to transfer system
activities from PRC to the new SDM contractors. This report is based on meetings with the Chief
Information Officer; CIO staff involved with the transition; CIO system line managers; PRC’s
program and deputy program managers; and the program management staff of the two SDM
contractors. We also met with the Director of Communications and Information Systems for
Galaxy Scientific Corporation, a system support contractor under the CIO’s direction. Finally, we
reviewed numerous PTO documents, including the APS baseline, APS problem reports, transition
plans, and task orders. Our work was conducted in accordance with the Standards for
Inspections issued by the President’s Council on Integrity and Efficiency.




                                                3
Office of Inspector General                                                            Final Inspection Report



OBSERVATIONS AND CONCLUSIONS
I.      PTO Did Not Adequately Prepare for APS Transition

A well planned and executed transition of PRC’s development and maintenance activities is
essential because of the importance of APS to PTO business and the magnitude of the transition
effort. Although PTO has made some progress, the transition effort lacks sufficient management,
planning, quality control, and training. We make recommendations at the end of this report to
alleviate problems with the APS transition and to build a better process for transferring other
systems to the new SDM contractors in the future.

Transferring the APS work material and PRC’s knowledge of the system to the new SDM
contractors is difficult because the APS is a large, complex, older system that is undergoing
change. It consists of 33 hardware components, 13 major software components, and nine
databases organized into a client-server architecture1 that is held together by a network serving
6,000 users. Because it has evolved over many years, APS is written in numerous programming
languages, older portions of it are not well documented, and it is implemented on both old and
new hardware platforms. Major efforts are underway to move older proprietary components to
newer commercial products and standards. These ongoing efforts also have to be transferred to
the new contractors.

The difficulty of transition is further complicated by PTO’s reliance on PRC for APS development
and maintenance for the past 13 years. Since PRC was the primary developer of APS, its
expertise is crucial to understanding how to readily fix operational problems or adapt APS for
changes. However, PRC’s contract was scheduled to expire at the end of September 1997, and
critical PRC personnel have left the APS project. Thus, at the time of our inspection, little time
remained to benefit from PRC’s dwindling pool of expertise.

APS is crucial to PTO’s business of examining and disseminating patents. An inadequate
transition could jeopardize APS operations, delay future system enhancements, and increase
system costs. Operational problems and delayed enhancements would be detrimental to the patent
user community, which consists of patent examiners and administrators, patentees, patent
attorneys, and the public. If delays occur, there is also a risk that PTO will postpone future
efforts to automate patent application handling. This would jeopardize PTO’s performance goals
of reducing both patent pendency (the time it takes to grant or deny a patent) and the unit-cost of
processing a patent application. Without improved performance, PTO would have to hire more
patent examiners to handle an ever increasing workload of incoming patent applications.


        1
         The APS has mainframe and workstation database servers that deliver information to a variety of client
computers, including desktop personal computers.

                                                       4
Office of Inspector General                                                  Final Inspection Report


        A. Transition Planning and Management Were Inadequate

In 1995 and 1996, PTO undertook several transition planning efforts that were not implemented.
In those years, PTO outlined a transition project in its five-year Strategic Information Technology
Plan, which advocated six to nine months of PRC and SDM contractor overlap and extensive
quality control of materials. PTO’s system engineering and technical assistance contractor
developed a transition plan that recommended, among other things, a transition management
team, work product quality control, hands-on training, and competency testing. Additionally,
PRC identified functional areas to transition and developed a detailed transition schedule in two
white papers.

PTO used PRC’s transition schedule as a basis for its schedule for transferring material from PRC
to PTO. However, PTO’s schedule is not as comprehensive or detailed as PRC’s. More
importantly, PTO did not develop a strategy for evaluating or remedying problems with the
transferred material or develop a program for extensive hands on training. At the time of our
inspection, several transition tasks had been started, but they were incomplete in the areas of
quality control and training. Also, six to nine months were not allocated for PRC and SDM
contract overlap. There were at most four months of overlap and even less for most transition
tasks, an inadequate period considering the complexity of the system to be transferred. A longer
period would have given PRC more time to work closely with the new contractors to transfer
institutional knowledge, as well as work materials.

The CIO did not assign a manager with technical knowledge of transition issues to lead the
transition effort. Instead, a coordinator was assigned to monitor progress. Decisions were mostly
made from the “bottom up” when transition issues arose. For example, a system line manager
would discover that transition activities were required and would report this to the transition
coordinator, who worked with the acquisition staff to modify task orders to handle the need.
Also, a team dedicated to transition was not established. When we suggested that a transition
team should be formed and regular meetings held, CIO officials responded that their organization
was short staffed and that regular meetings were time consuming and unnecessary.

One reason a more structured transition approach was not instituted is that some CIO staff
believed that the transition was not very important because APS availability to users has been very
good, its software (especially on the mainframe server) has not recently needed repair, and PTO
personnel can fix problems if they occur. While APS availability has been reported to be very
good, we believe this is a result of PRC’s expertise in handling routine updates of APS databases,
installing new releases of the patent text database search engine, and fixing operational problems.
After PRC leaves, the SDM contractors may have difficulty with these routine activities.
Moreover, problem reports show that APS software has undergone more than 100 repairs in the
past 1-1/2 years. In June 1997, 10 new problems were found with the newly implemented and
deployed APS personal computer software.

                                                 5
Office of Inspector General                                                   Final Inspection Report


        B. Transition Quality Control and Training Are Inadequate

PTO is not ensuring the quality of transferred system documentation. Although PRC is
transferring its APS document libraries to PTO, the documentation is not being checked for
completeness or accuracy, and problems are not being corrected. Erroneous documentation will
make it more difficult for the new SDM contractors to fix operational problems or enhance the
APS. One key document that was out-of-date was the APS Technical Baseline II. At the time of
our inspection PTO did not plan to update it. The baseline document is the only unified
description of APS and the best starting point for understanding the entire system, but it had not
been updated with system changes since September 1996. This document is being used to train
the SDM contractors. PTO informed us in the response to our draft report that this document has
now been updated.

In addition, PTO is not making the extra effort to test the APS generated from software files
being transferred from PRC to PTO. It is crucial that these transferred files result in a system that
operates identically to the current operational APS. However, PTO is not testing the transferred
system. Instead, PTO is compiling and linking the transferred files and then comparing the
resulting executable modules against the modules used to generate the current operational APS.
This verification technique may not detect some discrepancies and does not test the many
interactions that occur during system operation. If the transferred system differs from the
operational system, corrections and enhancements to APS will be more difficult to implement,
resulting in greater costs and delays.

A final concern with quality control was that PTO did not have a well-defined plan for ensuring
that it would receive all the material needed to continue APS maintenance and development after
PRC left. PRC had developed an inventory of contract deliverables and additional items.
However, it was not clear how PTO was going to ensure that the inventoried items were useful or
that the inventory was complete. For example, we found through discussions with CIO staff and
a review of task orders that PTO did not have a plan for transferring APS development and test
tools that PRC used. Without these tools, the SDM contractors would have to develop their
own set of tools, adding time and cost to future system work. In our follow-up field work, we
were informed that in July 1997, PTO system line managers started working with their PRC
counterparts to review PRC’s inventory and identify useful and missing development and test
tools.

SDM training has also been limited. Only two hands-on training tasks were planned for two APS
maintenance activities being transferred to the SDM contractors. The only other plans for APS
training were two- to four-hour overview lectures for other APS tasks. We believe that more in-
depth training, such as design and software walk-throughs for both operational systems and
systems under development, should have been provided to adequately prepare SDM contractors
to assume PRC development and maintenance activities.

                                                  6
Office of Inspector General                                                   Final Inspection Report


II.     Lack of a Configuration Management Plan Will Impede APS Development and
        Maintenance

Under the new acquisition approach, PTO will assume overall responsibility for configuration
management of both APS and non-APS systems. Configuration management is a discipline,
usually implemented with an automated tool and a set of procedures, for controlling software,
hardware, and documentation throughout the system life-cycle. It is crucial to system
development and maintenance because it controls and tracks access and changes to system
components, coordinates work among developers, and provides the means for building system
baselines for testing and release. For example, it controls such fundamental functions as who is
authorized to access a software module or update a baseline. Without configuration management,
system integrity is jeopardized.

A plan that describes procedures and responsibilities for configuration management must be
developed to adequately manage system material. A plan is especially important under the SDM
contracting approach because configuration management responsibilities, which were handled
solely by PRC, will now be shared by PTO and the two SDM contractors. Under this new
scenario it is important to define procedures and responsibilities for coordinating modifications to
APS between the two contractors, testing modifications, and moving the modified system into
operation. However, because PTO has not completed its configuration management plan, the
new SDM contractors’ work could be delayed.

PTO has made some progress toward instituting configuration management by acquiring an
automated configuration management tool, the Process Configuration Management System
(PCMS), and by tasking Galaxy Scientific Corporation to transfer the APS software from PRC’s
configuration management tools to PCMS. However, PTO has not decided whether PRC’s
configuration management tools or the new PCMS will be used immediately after PRC leaves and
the SDM contractors take over APS development and maintenance.

PTO has decided that PCMS will be the configuration management tool that will be used in the
future. But, because procedures for using PCMS may not be in place when PRC leaves, PTO
may decide to use PRC’s tools temporarily. If PRC’s tools are used, then the SDM contractors
will have to be trained in their use. Currently, this training is not planned. If PTO decides that
PCMS will be used, then development and maintenance activities will be delayed until PCMS
procedures are defined and tested. In either case, PTO needs to decide quickly where to allocate
resources and training for configuration management.




                                                 7
Office of Inspector General                                               Final Inspection Report



RECOMMENDATIONS
Presented below are our recommendations; to each, we provide a synopsis of PTO’s response,
and our comments on that response.

We recommend that PTO’s Chief Information Officer take the following actions:

1.      Negotiate a limited extension of PRC’s contract for systems not transferred before
        the contract expires, if PRC personnel with relevant experience can be retained.

Synopsis of PTO’s Response

PTO concurs with this recommendation. PTO received approval from the Department to extend
the contract on May 5, 1997. On September 26, PTO extended the contract to the end of
December 1997, primarily for minimal operational support for weekly loads of the patent text
database and on-call assistance for any other operational problems.

OIG Comment

Even though PTO had approval to extend PRC’s contract, it had not done so at the time of our
inspection. We recommended that the contract be extended because not enough time had been
set aside for PRC to assist the SDM contractors in becoming familiar with APS. In its response,
PTO seems to minimize the benefits of this extension. However, our recent follow-up field work
showed that it was fortunate that the contract was extended. Specifically, we found that PRC is
providing additional training to assist the SDM contractors in fixing problems with the APS
application code.

2.      Take the following steps to improve transition management:

        a.      Appoint a manager and a small team with adequate technical knowledge to
                understand transition issues.

        b.      Have the team, in collaboration with the SDM contractors, develop a list of
                activities needed to transition systems, including transfer of development and
                test tools.

        c.      Have the team, in collaboration with the SDM contractors, develop
                procedures and criteria for ensuring the quality of transferred system
                material and training.



                                               8
Office of Inspector General                                                     Final Inspection Report


        d.      Have the team define responsibilities and the schedule for completing the
                transition.

        e.      Chair regular meetings to review progress, identify problems, and ensure
                prompt problem resolution.

Synopsis of PTO’s Response

PTO disagrees with this recommendation. PTO believes its current management approach and
planned activities are adequate to complete the transition and does not plan any changes. PTO
also states that it submitted a master transition plan (completed in July 1997) to us and that the
SDM contractors received PTO’s standard set of development and test tools in June 1997.

OIG Comment

We continue to believe that PTO needed to change its approach to managing the transition in
order to mitigate transition weaknesses and efficiently utilize PRC’s expertise in the limited time
remaining before its extended contract expires. We recommended that PTO establish a team
knowledgeable about transition issues (such as configuration management, quality control,
training requirements) and dedicated to the transition effort. Such a team would have enabled
PTO to be proactive—identify transition issues up-front—rather than dealing with problems as
they arise. However, as stated in its response, PTO is not altering its reactive approach to
managing the transition; it continues to rely on a coordinator who works with a matrixed team
that divides its time between regular duties and the transition.

Also, PTO states in its response that it is not identifying additional transition activities to shore up
loose ends or address the concerns we raise in this report. PTO should have identified new
transition activities with the help of the SDM contractors because they could have provided
valuable information about what they needed to develop and maintain the APS. PTO did provide
us with a master schedule that mostly identifies the dates materials will be delivered from PRC to
PTO through the end of PRC’s original contract (September 30). It does not address activities
during the contract extension. With PRC’s contract extension expiring soon, PTO lacks sufficient
time to implement this recommendation. However, we believe the CIO should closely monitor
progress and provide resources for resolving problems as they arise.

During our field work we were concerned that the APS development and test tools used by PRC
would not be transferred to PTO. Through clarification we received in our follow-up work, we
were informed that PTO did consult with PRC about development and test tools and that some of
the more important ones were transferred.



                                                   9
Office of Inspector General                                                    Final Inspection Report


3.      Improve the quality control of transferred material and ensure that important
        documentation deficiencies are remedied.

Synopsis of PTO’s Response

PTO disagrees with this recommendation. PTO agrees that APS documentation may be
inadequate and that there is risk of rework costs. However, it believes that the cost of an
exhaustive review would exceed the cost of rework. In its response to our findings, PTO states
that it received an updated APS Technical Baseline II document on September 25, 1997. PTO
also states that APS application code was transferred to PCMS, the new configuration
management system, for completeness. Application code that runs on the mainframe will remain
in its current configuration management system.

OIG’s Comments

We believe that PTO’s approach to ensuring the completeness and accuracy of transferred APS
material (application code and documentation) will result in unnecessary risks. PTO should have
used its limited resources to identify and ensure the quality of the most important material.

PTO did not update APS documentation (besides the APS Technical Baseline II ) to reflect the
current state of the system. PTO acknowledges that its approach risks incurring “rework costs,”
but claims that resources were not available to update documentation and questions the benefit of
reviewing 13 years of APS. However, we believe PTO, with PRC’s assistance, could have
identified the most important documents and focused limited resources on reviewing and updating
them. In fact, in our follow-up work, we were informed that one SDM contractor has been
confronted with using practically indecipherable documentation for fixing APS operational
problems. In this case, PRC was called in to assist. However, PTO and the SDM contractors will
not be able to rely on PRC for assistance after its contract expires. This could result in increased
costs and delays to PTO’s patent system programs. With PRC’s contract extension expiring
soon, PTO lacks sufficient time to implement this recommendation.

During our field work, we were concerned that plans were not in place to update the APS
Technical Baseline II. PTO has informed us in its response that the baseline document has been
updated. While this will provide an up-to-date overview of the APS structure, it does not
significantly alleviate the difficulty the SDM contractors will have with the poor quality of detailed
system documentation.

PTO’s approach of compiling and linking APS application code and then comparing the resulting
executable modules against the operational APS modules is one approach for checking accuracy
and completeness. However, it is good practice, especially since the APS is crucial to PTO, to
confirm the accuracy of these comparisons by testing the transferred system to be sure it operates

                                                 10
Office of Inspector General                                                  Final Inspection Report


identically to the current operational system. PTO could have tested the transferred system
against the test suite used to approve the release of a new APS baseline. Lack of testing raises
the possibility of introducing errors that complicate APS maintenance and enhancement.

4.      Increase hands-on and in-depth training of the SDM contractors for software
        development and maintenance.

Synopsis of PTO’s Response

PTO disagrees with this recommendation. PTO believes that the SDM contractors have received
adequate APS training, as well as training in PTO’s method for managing information technology
and PCMS, the configuration management system PTO plans to use for APS.

OIG’s Comments

Training of the SDM contractors has been limited. In our follow-up work, we were informed that
one of the SDM contractors received in-depth training from the vendor of the patent text database
search engine (Messenger) and from PRC on tailoring and installing Messenger within the APS
environment. (However, because of the complexity of this task, PTO is considering not installing
new releases of Messenger.) PRC has also provided hands-on training for the migration of the
APS client system to a new operating environment. However, in other task areas, PRC provided
only overview training. This training usually consisted of a review of the structure of the system
documents, a discussion of technical highlights, and a question and answer period. PRC, in its
transition plan, offered extensive APS technical training. One reason PTO did not take advantage
of this offer before PRC’s original contract expired (September 30, 1997) was that the SDM
contractors did not have staff on board to train at that time. PTO should have planned additional
training during PRC’s contract extension, as we recommended, when the SDM contractors would
be more fully staffed. However, PTO has chosen to call in PRC only when problems arise.

We emphasized training, in part, because it could help compensate for the likelihood that an old
system like APS would be poorly documented. Based on our follow-up work, we found that our
concerns were warranted. PRC has been called in to train the SDM contractors in portions of the
APS where the documentation is too poor to provide insight into how to fix problems.

The training the SDM contractors receive in PTO’s method for managing information technology
and PCMS is helpful, but it will not increase their knowledge of APS. In our follow-up work, we
were informed that one SDM contractor was able to reduce the risk of working on an unfamiliar
system by hiring two APS programmers from PRC. However, with PRC’s contract extension
expiring soon, PTO lacks sufficient time to implement this recommendation.



                                                11
Office of Inspector General                                                  Final Inspection Report


5.      Develop and start implementing a configuration management plan within 30 days,
        including making a final determination of which configuration management system
        the SDM contractors will use immediately after PRC leaves.

Synopsis of PTO’s Response

PTO concurs with this recommendation. PTO states that a plan has been evolving since July
1993 and that the latest version was released in September 1997. Further, PTO has decided to
leave the APS mainframe application code on the mainframe’s configuration management system
and that all other application code will be configured under PCMS.

OIG’s Comment

PTO recognizes the importance of configuration management to software development and
maintenance and realizes that its existing plan needs refinement. Our follow-up work showed that
PTO is currently resolving issues with PCMS client-server connectivity, SDM contractor access
privileges, and the identity of the responsible parties for resolving these issues. These types of
issues are usually resolved in the final configuration management plan.

6.      Apply lessons learned to improve the transition process for non-APS systems.

Synopsis of PTO’s Response

PTO concurs with this recommendation.

OIG’s Comment

PTO plans to use lessons learned in this transition on the transition of non-APS systems in the
future.




                                                12
